           Office Of Inspector General




December 8, 2004

FAYE McCREARY
FINANCIAL MANAGEMENT SERVICE, U.S. DEPARTMENT OF THE TREASURY

LYNDA DOWNING
U.S. GOVERNMENT ACCOUNTABILITY OFFICE

KIM GEIER
OFFICE OF MANAGEMENT AND BUDGET
OFFICE OF FEDERAL FINANCIAL MANAGEMENT

SUBJECT:         Audit Opinion on the Postal Service’s Special-Purpose
                 Financial Statements

Attached is a copy of the report on our audit of the Postal Service’s special-purpose
closing package. The objective of the audit was to express an opinion on the
reclassified balance sheet as of September 30, 2004, and the related reclassified
statements of net cost and changes in net position for the year then ended (referred to
as special-purpose financial statements).

The special-purpose financial statements and notes were prepared by the Postal
Service for the purpose of providing financial information to the U.S. Department of the
Treasury and U.S. Government Accountability Office to use in preparing and auditing
the Financial Report of the U.S. Government, and are not intended to be a complete
presentation of the Postal Service’s financial statements. In our opinion, the
special-purpose financial statements referred to above present fairly, in all material
respects, the financial position of the Postal Service as of September 30, 2004, and its
net costs and changes in net position for the year then ended in conformity with
accounting principles generally accepted in the United States of America and the
presentation pursuant to the requirements prescribed in Treasury Financial Manual,
Chapter 4700.




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
If you have any questions, please contact John E. Cihota, Director, Financial
Statements, or me at (703) 248-2300.


/s/ John M. Seeba

John M. Seeba
Assistant Inspector General
 for Audit

Attachments

cc: Richard J. Strasser, Jr.
    Lynn Malcolm
    Stephen J. Nickerson
    Margaret A. Weir
    Steven R. Phelps
           Office Of Inspector General




December 8, 2004

RICHARD J. STRASSER, JR.
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT:         Audit Report – Opinion on the Postal Service’s Special-Purpose
                 Financial Statements (Report Number FT-AR-05-002)

We have audited the accompanying reclassified balance sheet as of
September 30, 2004, and the reclassified related statements of net cost and changes in
net position for the year then ended (hereinafter referred to as the special-purpose
financial statements) contained in the special-purpose closing package of the Postal
Service (Project Number 04XD012FT002). These special-purpose financial statements
are the responsibility of Postal Service management. Our responsibility is to express an
opinion on these financial statements based on our audit. (See the appendix for the
special-purpose financial statements, notes, and other data.)

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin 01-02, Audit
Requirements for Federal Financial Statements, related to special-purpose financial
statements. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the special-purpose financial statements are free
of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the special-purpose financial statements. An
audit also includes assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall special-purpose financial
statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

The accompanying special-purpose financial statements and accompanying notes
contained in the special-purpose closing package have been prepared for the purpose
of complying with the requirements of the Treasury Financial Manual (TFM), Volume I,
Part 2, Chapter 4700, solely for the purpose of providing financial information to the
U.S. Department of the Treasury and U.S. Government Accountability Office to use in
preparing and auditing the Financial Report of the U.S. Government, and are not
intended to be a complete presentation of the Postal Service’s financial statements.


   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Opinion on the Postal Service’s Special-Purpose                              FT-AR-05-002
 Financial Statements



In our opinion, the special-purpose financial statements referred to above present fairly,
in all material respects, the financial position of the Postal Service as of
September 30, 2004, and its net costs and changes in net position for the year then
ended in conformity with accounting principles generally accepted in the United States
of America and the presentation pursuant to the requirements prescribed of the TFM,
Chapter 4700.

The information included in the Other Data is presented for the purpose of additional
analysis and is not a required part of the special-purpose financial statements, but is
supplementary information required by TFM, Chapter 4700. We have applied certain
limited procedures, which consisted principally of inquiries of management regarding
methodology and presentation of this information. We also reviewed such information
for consistency with the related information presented in the Postal Service’s financial
statements. However, we did not audit this information, and accordingly, we express no
opinion on it.

In accordance with Government Auditing Standards, a report was issued dated
November 10, 2004, by another auditor on its consideration of the Postal Service’s
internal control over financial reporting and its compliance with certain provisions of
laws and regulations. The report is an integral part of an audit of general purpose
financial statement reporting performed in accordance with Government Auditing
Standards, and should be read in conjunction with this report in considering the results
of our audit.

In planning and performing our audit of the special-purpose financial statements, we
also considered the Postal Service’s internal control over the special-purpose financial
statements and compliance with the TFM, Chapter 4700. Management is responsible
for establishing and maintaining internal control over financial reporting, including Other
Data, and for complying with laws and regulations, including compliance with the TFM,
Chapter 4700, requirements.

Our consideration of internal control over the financial reporting process for the
special-purpose financial statements would not necessarily disclose all matters in the
internal control over the financial reporting process that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants,
reportable conditions are matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control over financial reporting
that, in our judgment, could adversely affect the Postal Service’s ability to record,
process, summarize, and report financial data consistent with the assertions by
management in the special-purpose financial statements. Material weaknesses are
reportable conditions in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level the risk that misstatements,
in amounts that would be material in relation to the special-purpose financial statements




                                                  2
Opinion on the Postal Service’s Special-Purpose                             FT-AR-05-002
 Financial Statements


being audited, may occur and not be detected within a timely period by employees in
the normal course of performing their assigned functions.

We found no material weaknesses in internal control over the financial reporting
process for the special-purpose financial statements, and our tests of compliance with
the TFM, Chapter 4700, requirements disclosed no instances of noncompliance that are
required to be reported under Government Auditing Standards and OMB Bulletin 01-02.
However, providing opinions on internal controls over the financial reporting process for
the special-purpose financial statements or on compliance with the TFM, Chapter 4700,
requirements were not objectives of our audit of the special-purpose financial
statements, and accordingly we do not express such opinions.

The report is intended solely for the information and use of the Postal Service, the U.S.
Department of the Treasury, the Office of Management and Budget and the U.S.
Government Accountability Office in connection with the preparation and audit of the
Financial Report of the U.S. Government and is not intended to be and should not be
used by anyone other than these specified parties.


/s/ John M. Seeba

John M. Seeba
Assistant Inspector General
 for Audit

Attachment

cc: Lynn Malcolm
    Stephen J. Nickerson
    Margaret A. Weir
    Steven R. Phelps




                                                  3
Opinion on the Postal Service’s Special-Purpose                  FT-AR-05-002
 Financial Statements


                   APPENDIX. SPECIAL-PURPOSE FINANCIAL
                    STATEMENTS, NOTES, AND OTHER DATA

                                   TABLE OF CONTENTS

 SPECIAL-PURPOSE FINANCIAL STATEMENTS                                   5
   Balance Sheet                                                        5
   Statement of Net Cost                                                7
   Statement of Changes in Net Position                                 8

 NOTES                                                                10
   01         Summary of Significant Accounting Policies              10
   02         Cash and Other Monetary Assets                          11
   03         Accounts Receivable                                     12
   04A        Direct Loans and Loan Guarantees                        14
   04B        Loan Guarantees                                         18
   05         No Footnote Provided                                    N/A
   06         Inventories and Related Properties                      23
   07         Property, Plant, and Equipment                          29
   08         Other Assets                                            33
   09         Accounts Payable                                        34
   10A        No Footnote Provided                                    N/A
   10B        Treasury Securities Held by the Government Trust        35
               Revolving, and Special Funds
     11       Federal Employee and Veteran Benefits Payable           36
     12       Environmental and Disposal Liabilities                  40
     13       Benefits Due and Payable                                42
     14       Other Liabilities                                       43
     15       No Footnote Provided                                    N/A
     16       Prior Period Adjustments                                45
     17       Contingencies                                           46
     18       Commitments                                             48
     19       Dedicated Collections                                   51

 OTHER DATA                                                            54
   Trading Partner Summary Report                                      54
   Audited Financial Statement Report (per the Governmentwide          59
     Financial Report System)




                                                  4
Opinion on the Postal Service’s Special-Purpose       FT-AR-05-002
 Financial Statements


SPECIAL-PURPOSE FINANCIAL STATEMENTS.




                                                  5
Opinion on the Postal Service’s Special-Purpose       FT-AR-05-002
 Financial Statements




                                                  6
Opinion on the Postal Service’s Special-Purpose       FT-AR-05-002
 Financial Statements




                                                  7
Opinion on the Postal Service’s Special-Purpose       FT-AR-05-002
 Financial Statements




                                                  8
Opinion on the Postal Service’s Special-Purpose       FT-AR-05-002
 Financial Statements




                                                  9
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements


NOTES.




                                                  10
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  11
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  12
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  13
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  14
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  15
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  16
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  17
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  18
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  19
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  20
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  21
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  22
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  23
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  24
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  25
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  26
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  27
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  28
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  29
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  30
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  31
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  32
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  33
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  34
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  35
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  36
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  37
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  38
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  39
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  40
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  41
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  42
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  43
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  44
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  45
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  46
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  47
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  48
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  49
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  50
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  51
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  52
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  53
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements


OTHER DATA.




                                                  54
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  55
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  56
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  57
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  58
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  59
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  60
Opinion on the Postal Service’s Special-Purpose        FT-AR-05-002
 Financial Statements




                                                  61
